     Department of Homeland Security





    FEMA Should Deobligate $226,096 of Unneeded Public 

       Assistance Grant Funds Awarded to the Town of 

       Dauphin Island, Alabama – Tropical Storm Ida





DA-13-01                                  November 2012

                      a;,
                        ~~"D ~if$
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security
                                          Washington. DC 205281 www,Qig.dhs.gov


                                                  NOV       2 2012

MEMORANDUM FOR:                     Major P. (Phil) May

                                                        nct1l\Aanage       nt Agency

FROM:
                                    AssIstant Inspector General
                                    Office of Emergency Management Oversight

SUBJECT:                            FEMA Should Deobligate $226,096 of Unneeded Public Assistance
                                    Grant Funds Awarded to the Town 0/ Dauphin Island, Alabama-
                                    Tropical Storm fda
                                    FEMA Disaster Number 1866-DR-AL
                                    Audit Report Number DA-13-01

We audited Public Assistance (PAl grant funds awarded to the Town of Dauphin Island,
Alabama (Town) (FIPS Code 097-19744-00). Our audit objective was to determine whether the
Town accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to Federal regulations and FEMA guidelines.

As of November 7, 2011, the Town received a PA award of $2.5 million from the Alabama
Emergency Management Agency (State), a FEMA grantee, for damages resulting from Tropical
Storm Ida, which occurred in November 2009. The award provided 75 percent FEMA funding
for debris removal activities and repairs to roads and park facilities. The award consisted of
three large and seven small projects. 1

We audited three large and six small projects with awards totaling $1.4 million (see Exhibit A,
Schedule of Projects Audited). The audit covered the period November 9,2009, to January 9,
2012, during whiCh the Town submitted claims totaling $687,725. At the time of our audit, the
Town had not completed work on all projects, and therefore, had not submitted a final claim on
project expenditures to the State.

We conducted this performance audit between January and March 23, 2012, pursuantto the
Inspector General Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



1 Federal regulations in effect at the time of Tropical Storm Ida set the large project threshold at $63,200.
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

based upon our audit objective. We conducted this audit applying the statutes, regulations,
and FEMA policies and guidelines in effect at the time of the disaster.

We interviewed Town, State, and FEMA personnel; reviewed the Town’s procurement policies
and procedures; reviewed applicable Federal regulations and FEMA guidelines; and performed
other procedures considered necessary to accomplish our audit objective. We did not assess
the adequacy of the Town’s internal controls applicable to its grant activities because it was not
necessary to accomplish our audit objective. However, we gained an understanding of the
Town’s method of accounting for disaster-related costs and its policies and procedures for
administering the activities provided for under the FEMA award.


                                             RESULTS OF AUDIT

Although the Town generally accounted for FEMA funds on a project-by-project basis, as
required by Federal regulations and FEMA guidelines, we identified $226,096 of excess project
funding that should be deobligated and put to better use because the funding is no longer
needed to complete work under the grant. We also determined that the Town was awarded
$103,365 under two small projects for permanent repair work that had not been completed
within timeframes established by regulation.

Finding A: Unneeded Funds

Federal funding totaling $226,096 under Project 40 should be deobligated and put to better use
because work under the project is complete and the funding is no longer needed. The Town
completed all authorized work under the project in May 2010 and incurred actual costs totaling
$15,213. This amount is $226,096 less than the $241,309 that FEMA estimated and obligated
under the project for the approved scope of work. Therefore, FEMA should deobligate the
$226,096 of unused funds and put them to better use.2

According to 44 CFR §206.205 (b)(1), the grantee shall make an accounting of eligible costs for
each large project and certify to FEMA that the reported costs were for eligible disaster work as
soon as practicable after the subgrantee has completed the approved work and requested
payment. FEMA should review the accounting submitted by the State for each large project,
and determine the eligibility of the costs and whether funds should be obligated or deobligated
for the project.

On August 30, 2010, the State sent a request to FEMA asking for final inspection and closeout of
the project. However, the unneeded FEMA funding of $226,096 remains obligated. According


2
  Project 40 was written for damages to pavement, parking blocks, the electrical system, and the freshwater and
sewer system at West End Park.

    www.oig.dhs.gov                                     2                                          DA-13-01
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security

to FEMA officials, competing priorities and PA work under other disasters affected the
timeliness of their closeout activities.

Federal appropriations laws and the Statement of Federal Financial Accounting Standards
(SFFAS) require Federal agencies to record obligations in the accounting records on a factual
and consistent basis throughout the Government.3 Reducing unneeded funding in a timely
manner (1) releases funds to cover cost overruns on other projects associated with the disaster,
(2) provides a more accurate status of public assistance program costs for a disaster, and (3) is
consistent with appropriations law and SFFAS Number 5 that require obligations/liabilities in
FEMA’s accounting system to be recorded accurately and supported. Therefore, FEMA should
promptly deobligate the $226,096 from Project 40 and put those funds to better use.

State and Town Response. State and Town officials agreed that the FEMA funding for the
projects should be adjusted to account for actual eligible documented costs. They said that
they welcome FEMA’s assistance in completing final inspections on the projects.

Finding B: Small Project Work Not Performed

The Town was awarded $103,365 under two small projects for permanent repair work that has
not been completed within timeframes established by regulation. Federal regulation 44 CFR
206.204 states that a grant recipient has 18 months from the disaster date to complete
permanent work. However, the State, as grantee, may grant extensions for an additional 30
months under extenuating circumstances, and FEMA may grant extensions beyond the State’s
authority appropriate to the situation. Federal regulation 44 CFR 206.205(a) states that a grant
recipient’s failure to complete work under a small project may require that the Federal
payment be refunded.

In August 2012, the Town received an award of $55,719 under Project 27 for repairing and/or
replacing 100 driveway access culverts, and $47,646 under Project 28 for installing a sand
fence, which is a picket-type fence along the shoreline to allow the buildup of sand. However,
as of April 26, 2012, the Town had not begun work on either project. According to Town
officials, they had requested in June 2010 that the State approve a time extension to complete
work under the projects because of startup delays related to the March 2010 Deepwater
Horizon oil spill in the Gulf of Mexico. However, neither the State nor Town officials could
provide documentation to show that the Town’s request was approved.

State and Town Response. State and Town officials disagreed that the funding should be
deobligated under Projects 27 and 28. After the exit conference on July 2, 2012, State officials
provided a July 25, 2012, letter in which the State had approved a new deadline of April 1,
2013, for completion of the projects. State officials also said that the Town had requested that

3
  U.S. General Accounting Office’s Principles of Federal Appropriations Law, 3rd edition, volume Il, February 2006,
chapter 7, section B: Criteria for Recording Obligations (31 U.S.C. § 1501).

    www.oig.dhs.gov                                      3                                           DA-13-01
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

FEMA approve the projects as alternate projects, and they are awaiting a decision from FEMA
on the Town’s request.

Office of Inspector General Response. The new completion deadline approved by the State
after our exit conference falls within the State’s authority under the PA program. Therefore,
we modified our original recommendation that FEMA disallow the costs. We now recommend
that FEMA instruct the State to monitor the progress of work under the projects closely to
ensure that they are completed by the new deadline of April 1, 2013.


                                     RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

       Recommendation #1: Deobligate and put to better use $226,096 of unneeded Federal
       funding (finding A).

       Recommendation #2: Instruct the State to monitor the progress of the Town’s work
       under Projects 27 and 28 closely to ensure that they are completed by the new deadline
       of April 1, 2013 (finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Town, State, and FEMA officials during our audit. We
also provided a draft report in advance to these officials and discussed it at the exit conference
held on July 11, 2012. After the exit conference, State and Town officials provided a written
coordinated response to the audit findings and recommendations. Their response caused us to
modify our original recommendation under finding B. Their comments, where appropriate,
have been incorporated into the body of this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.


   www.oig.dhs.gov                              4                                    DA-13-01
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

Major contributors to this report were David Kimble, Eastern Region Audit Director; Adrianne
Bryant , Audit Manager; Mary Stoneham , Auditor-in-charge; and Amos Dienye, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




   www.oig.dhs.gov                             5                                   DA-13-01
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

                                                                                           EXHIBIT A

                                    Schedule of Projects Audited 

                                November 9, 2009, to January 9, 2012 

                                  Town of Dauphin Island, Alabama

                                 FEMA Disaster Number 1866-DR-AL 


    Project           Project            Amount          Amount           Amount
   Number             Scope              Awarded         Claimed         Questioned          Finding
Large Projects
      20          Debris removal          $902,945         $902,945               -
      40           Repair park              241,309         $14,753        $226,096             A
      43           Repair roads              90,039               -               -
   Subtotal                              $1,234,293        $917,698        $226,096
Small Projects
                    Replace 100
     27                                     $55,719                -                  -         B
                 driveway culverts
     28          Build sand fence            47,646               -                   -         B
     25          Replace geo-tech            11,258          11,258                   -
     10           Replace culvert             2,999           2,999                   -
     29           Debris removal             44,268          42,268                   -
                   Remove sand
      9                                       8,876            8,876                  -
                    from ditches
  Subtotal                                $170,766          $65,401               -
   Total                                 $1,405,059        $983,099        $226,096




    www.oig.dhs.gov                                6                                      DA-13-01
                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                                                                            EXHIBIT B 

                                Report Distribution List 

                            Town of Dauphin Island, Alabama

                           FEMA Disaster Number 1866-DR-AL 



Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison. FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-009)

Grantee

Public Assistance Coordinator, Alabama Division of Emergency Management

State

State Auditor, Alabama

Subgrantee

Mayor, Dauphin Island, Alabama




   www.oig.dhs.gov                            7                           DA-13-01
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
